                                                                Issue Date
                                                                         October 12, 2011
                                                                Audit Report Number
                                                                             2012-FW-1002




TO:        David Pohler, Director, Office of Public Housing, 6JPH

           //signed//
FROM:      Gerald R. Kirkland
           Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Housing Authority of the City of Corpus Christi, TX, Generally
         Administered Recovery Act Capital Funds in Compliance With the Recovery Act


                                   HIGHLIGHTS

 What We Audited and Why

             In accordance with our goal to review funds provided under the American
             Recovery and Reinvestment Act of 2009, we audited the Public Housing Capital
             Fund Stimulus (formula) Recovery Act-funded activities of the Corpus Christi
             Housing Authority in Corpus Christi, TX. Our objective was to determine
             whether the Authority expended Recovery Act funds in accordance with
             Recovery Act rules and regulations and submitted timely Recovery Act
             performance reports.


 What We Found

             Generally, the Authority complied with Recovery Act requirements. However, it
             used more than $6,000 in Recovery Act funds for ineligible and unsupported
             purposes including (1) the purchase of furniture that was not made in America
             and other furniture, the origin of which was unclear; (2) incidental relocation
             expenses that it did not support with receipts; and (3) general purpose office
             supplies. In addition, the Authority could better use more than $2,000 in
             misallocated Recovery Act salary expenses and impending ineligible relocation
             expenses. It also submitted one late quarterly performance report. These minor
             exceptions occurred because the Authority’s program staff was not aware of
           Recovery Act requirements and the Authority had not implemented effective
           controls over cost eligibility, cost allocation, and payroll processing. The late
           performance report was caused by competing work priorities.

What We Recommend


           We recommend that the Director of the U. S. Department of Housing and Urban
           Development’s (HUD) Office of Public Housing require the Authority to develop
           and implement effective controls over its Recovery Act activities to ensure that
           (1) its payroll processing, purchasing, cost eligibility, and cost allocation comply
           with Recovery Act and HUD requirements; (2) its staff is aware of program
           requirements; and (3) only allowable costs are charged to program accounts.
           Also, the Authority should use non-Federal funds to reimburse $2,173 to the U. S.
           Treasury, including $660 for furniture that was not made in America in violation
           of program requirements, $1,450 for ineligible relocation payments, and $63 for
           ineligible office supplies. Further, the Authority should provide support showing
           that furniture at Ruthmary Price was made in America or reimburse $4,302 to the
           U. S. Treasury. Finally, the Authority should change its relocation policy so that
           it does not incur an additional $1,450 in ineligible relocation payments and
           reallocate $411 in Recovery Act salaries that it misallocated to the low-rent
           program and $557 that it misallocated among other Federal and non-Federal
           programs as indicated by employee timesheets.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided our discussion draft to the Authority on September 23, 2011, and
           held an exit conference on September 28, 2011. We requested a written response
           by September 28, 2011, and the Authority provided its response on September 30,
           2011. The Authority agreed with some conclusions and disagreed with others.
           The Authority provided explanations to support its position. We reviewed the
           explanations and revised the report where appropriate. The complete text of the
           Authority’s response, along with our evaluation of that response, can be found in
           appendix B of this report.




                                             2
                           TABLE OF CONTENTS

Background and Objective                                                         4

Results of Audit
      Finding: The Authority Generally Complied With Recovery Act Requirements   5

Scope and Methodology                                                            9

Internal Controls                                                                10

Appendixes
      A. Schedule of Questioned Costs and Funds To Be Put to Better Use          11
      B. Auditee Response and OIG’s Evaluation                                   12
      C. Examples of Recovery Act-Funded Activities                              16




                                            3
                      BACKGROUND AND OBJECTIVE

The City of Corpus Christi established the Housing Authority of Corpus Christi, TX, in 1938.
The governing body of the Authority is its five-member board of commissioners appointed by
the mayor. The board hires an executive director to manage the Authority’s day-to-day
operations. The Authority provides low-cost housing for more than 4,000 people and has more
than 1,800 units. The Authority’s services include assistance to the elderly with daily living,
medical needs, and transportation, while its family assistance programs provide help with
childcare, transportation, counseling, dispute resolution, and housekeeping.

The American Recovery and Reinvestment Act of 2009 was signed into law on February 17,
2009. It provided $4 billion for public housing agencies to carry out capital and management
activities, including modernization and development of public housing. It allocated $3 billion
for formula grants and $1 billion for competitive grants. The Recovery Act required public
housing agencies to obligate 100 percent of the funds within 1 year of the date on which funds
became available to the agency for obligation and expend 60 percent within 2 years and 100
percent within 3 years of such date. The Authority received a little more than $3.5 million in
Recovery Act Public Housing Capital Fund program grant funds.

The Authority used Recovery Act funding for interior and exterior repairs to its public housing
units, infrastructure, and site improvements and to replace appliances. The Authority’s Recovery
Act activities for each of its properties are included in appendix C, along with pictures of some
of the activities.

Our objective was to determine whether the Authority expended Recovery Act funds in
accordance with the Recovery Act rules and regulations and submitted timely Recovery Act
performance reports.




                                               4
                                   RESULTS OF AUDIT

Finding: The Authority Generally Complied With Recovery Act
Requirements
The Authority generally complied with Recovery Act rules and regulations. It (1) met the time
deadlines for both obligations and expenditures, (2) used funding to address items identified on
its needs assessment and annual plan, (3) used appropriate methods to award professional service
and construction contracts in accordance with its amended procurement policy as required by the
Recovery Act, and (4) submitted all but 1 of its 14 Recovery Act reports1 in a timely manner.
However, the Authority did not fully comply with the Recovery Act because it was unaware that
some Recovery Act requirements differed from Authority policy and did not update all of its
procedures and controls to reflect the Recovery Act requirements. As a result, the Authority
incurred more than $6,000 in ineligible and unsupported costs and will incur more than $1,000 in
additional ineligible costs if it does not update its procedures and controls for Recovery Act
funds.


    The Authority Obligated and
    Expended Recovery Act Funds
    by the Required Deadlines


                By March 17, 2010, the Authority had obligated all of its Recovery Act grant funds
                to address identified needs at nine properties. The obligations included three
                architectural and engineering contracts and five construction contracts for site
                improvements, roofing, windows, interior and exterior renovations, security
                cameras, and security fencing. The interior renovations included new appliances,
                while the exterior renovations included the installation of hurricane-resistant window
                coverings. By March 31, 2011, the end of the audit period, the Authority had
                expended 93 percent of its Recovery Act grant funding for these activities.
                Examples and photographs of the Authority’s Recovery Act activities are in
                appendix C.

    The Authority Violated
    Recovery Act Requirements


                With a few minor exceptions, the Authority’s Recovery Act expenses were eligible,
                supported, and reported in a timely manner. However, the Authority (1) did not
                fully comply with the Recovery Act’s “made in America” requirements, (2) made
                ineligible relocation payments to tenants, (3) misallocated salary expenses, (4)


1
     Recovery Act Management Performance System reports


                                                    5
                inappropriately used Recovery Act funds for general office supplies not used solely
                for Recovery Act activities, and (5) submitted 1 of 14 performance reports late.

                Furniture Was Not Made in America
                The Authority paid $4,962 in Recovery Act funds to purchase furniture that it could
                not show was made in America as required because program staff was unaware of
                the “made in America” requirement. Although Section 1605 of the Recovery Act
                requires manufactured goods to be made in America, a furniture sales representative
                identified $660 in furniture items that were manufactured and assembled outside of
                the United States. The Authority did not provide evidence to show that the
                remaining furniture items, costing $4,302, were made in America.

                Relocation Payments Were Ineligible
                The Authority made $1,450 in ineligible relocation payments for incidental expenses
                to assist 29 tenants in temporarily relocating from a property that it was renovating
                with Recovery Act funds. According to the Authority, its policy did not require a
                receipt for the incidental relocation payments and allowed the Authority to provide
                additional assistance if the tenants submitted receipts. The Authority made the
                ineligible payments because its policy conflicted with HUD requirements2 and its
                program staff was unaware of the conflict. The Authority’s relocation policy
                allowed it to provide $100 in relocation payments for incidental expenses to
                temporarily displaced tenants without receipts. The Authority paid each of the 29
                tenants $50 for incidental expenses related to the move out and expected to pay $50
                to each tenant for incidental expenses related to each tenant’s return to a renovated
                unit. The Authority’s program staff was unaware that HUD requires grant funds to
                be used for reasonable, necessary, and adequately documented expenses. The
                Authority will incur an additional $1,450 in ineligible relocation payments for
                returning tenants unless it changes its policy.

                Recovery Act Payroll Expenses Were Misallocated to Its Low-Rent Program
                The Authority misallocated $411 in Recovery Act salary expenses to its low-rent
                program and another $557 among the Authority’s other Federal and non-Federal
                programs. This error occurred because the Authority did not accurately copy
                timesheet information into its computerized payroll system and did not have an
                independent review or reconciliation of payroll allocations. The Authority recently
                changed its payroll processing procedures and consolidated payroll processing into a
                single department. It should reevaluate its payroll processing controls to help ensure
                that salary costs are accurately allocated among program accounts. It should also
                use $411 in Recovery Act funds to repay its low-rent program and review employee
                timesheets to determine to which program account the remaining $557 in Recovery
                Act funding should be reallocated.

                Recovery Act Funds Were Used for General Purpose Office Supplies
                The Authority used $63 to purchase general use office supplies for the Capital Fund
                program construction office. This was the Authority’s only purchase from an office

2
    OMB Regulation, 2 CFR, Part 225 Attachment A Section C.1.


                                                    6
             supply retailer using Recovery Act funds, and it occurred because the Authority’s
             program staff did not know that grant costs are allowable for Federal reimbursement
             only to the extent of benefits received or that Recovery Act funds could not be used
             for operating expenses.

             One of 14 Performance Reports Was Not Made in a Timely Manner
             Despite a letter from HUD requiring the Authority to submit environmental reports
             within 10 days of the end of the quarter, the Authority submitted its December 31,
             2010, quarterly environmental report 18 days late. The quarterly report was due by
             January 10, 2011 but the Authority submitted the report on January 28, 2011.
             Authority staff members explained that they turned the report in late because they
             had other priorities.


Conclusion


             The Authority generally complied with Recovery Act rules and regulations.
             However, Authority management did not implement effective controls over cost
             eligibility and allocation and payroll processing, resulting in questioned costs and
             funds than can be put to better use of nearly $9,000. Further, the Authority
             submitted 1 of its 14 quarterly reports 18 days after it was due.

Recommendations

             We recommend that the Director of the Office of Public Housing require the
             Authority to

             1A. Revise controls to include Recovery Act requirements and review payroll
                 processing procedures and revise as appropriate to ensure that salary
                 expenses are accurately allocated among its program accounts.

             1B. Use non-Federal funds to repay $660 to the U. S. Treasury for furniture not
                 made in America.

             1C. Provide support showing that furniture identified in this report was made in
                 America or repay $4,302 to the U. S. Treasury.

             1D. Use non-Federal funds to repay $1,450 to the U. S. Treasury for ineligible
                 tenant relocation payments.

             1E. Change its relocation policy to require receipts for all relocation payments
                 so that it does not incur $1,450 in additional ineligible relocation costs,
                 thereby putting the funds to better use for eligible and supported costs.




                                               7
1F. Use non-Federal funds to repay $63 to the U. S. Treasury for ineligible
    office supplies.

1G. Use $411 in Recovery Act funding to repay its low-rent program for
    misallocated salary expenses.

1H. Reallocate $557 in Recovery Act funding to repay its Federal and non-
    Federal programs for misallocated Recovery Act salary expenses as
    recorded on employee timesheets.




                                8
                        SCOPE AND METHODOLOGY

We conducted our audit work at the Authority’s central office located at 3701 Ayers Street in
Corpus Christi, TX, and in the HUD Office of Inspector General’s (OIG) office in San Antonio,
TX. We performed our audit work between April 19 and September 9, 2011. The Audit covered
the period March 1, 2009, through March 31, 2011. We limited our scope to the Authority’s
Recovery Act reimbursements and related expenditures and program performance reporting
during the review period. We adjusted the scope as necessary to meet the audit objective.

To accomplish our objective, we performed the following steps as they related to the Authority’s
Recovery Act Capital Fund formula grant:

       Reviewed relevant laws, regulations, and HUD guidance.
       Reviewed applicable minutes of the Authority’s board of commissioners.
       Reviewed the Authority’s audited financial statements for fiscal year 2009 and the
       unaudited financial statements for fiscal year 2010.
       Reviewed the Authority’s annual plan, 5-year action plan, and needs assessment.
       Reviewed the Authority’s procurement records for all Recovery Act contracts.
       Selected and reviewed a nonstatistical, representative sample of expenditures to
       determine whether disbursements were adequately supported.
       Interviewed Authority staff to determine its procedures for procurement, cost allocation,
       accounts payable, and performance reporting.
       Reviewed the Authority’s Recovery Act reporting for timeliness and accuracy.
       Conducted site visits of and photographed representative activities to illustrate the
       Authority’s use of formula grant funds.
       Interviewed HUD Office of Public Housing staff in San Antonio and Fort Worth, TX,
       and Washington, DC.

We selected a nonstatistical, representative sample of 26 of the Authority’s 131 Recovery Act
expenditures. The 26 samples, valued at more than $1 million, represented 31 percent of the
Authority’s total Recovery Act expenditures of more than $3.2 million. We used a nonstatistical
sample because we were evaluating the Authority’s payment procedures and not projecting a
dollar value of errors in its total expenditures.

Information system data was used for background or information purposes only. We obtained
payroll expense data from the Authority’s computerized payroll system and used source
documents to confirm the misallocated payroll expense amounts included in the finding. We did
not project results to the population.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.



                                               9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

         Effectiveness and efficiency of operations,
         Reliability of financial reporting, and
         Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                      Controls to ensure the Authority’s financial accounting accuracy.
                      Controls to ensure that the Authority submits accurate periodic reports of its
                      Recovery Act activities and accomplishments in a timely manner.
                      Controls to ensure that the Authority’s Recovery Act expenditures, including
                      the procurement of goods and services, comply with Recovery Act
                      requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal controls exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We did not note any items that we believe to be significant deficiencies.




                                                 10
                                          APPENDIXES

Appendix A

                   SCHEDULE OF QUESTIONED COSTS
                  AND FUNDS TO BE PUT TO BETTER USE

  Recommendation               Ineligible 1/ Unsupported 2/          Funds to be put
         number                                                      to better use 3/
                  1B                   $660
                  1C                                      $4,302
                  1D                  1,450
                  1E                                                            1,450
                  1F                      63
                  1G                                                               411
                  1H                                                               557

        Totals                       $2,173               $4,302               $2,418




1/ Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity that the
   auditor believes are not allowable by law; contract; or Federal, State, or local policies or regulations.

2/ Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or activity
   when we cannot determine eligibility at the time of the audit. Unsupported costs require a decision
   by HUD program officials. This decision, in addition to obtaining supporting documentation, might
   involve a legal interpretation or clarification of departmental policies and procedures.

3/ Recommendations that funds be put to better use are estimates of amounts that could be used more
   efficiently if an OIG recommendation is implemented. These amounts include reductions in outlays,
   deobligation of funds, withdrawal of interest, costs not incurred by implementing recommended
   improvements, avoidance of unnecessary expenditures noted in preaward reviews, and any other
   savings that are specifically identified. In recommendation 1E, the Authority will not incur $1,450 in
   ineligible incidental relocation expenses if it changes its policy to disallow relocation expenses not
   supported by receipts. In recommendations 1G and1H, the Authority should use Recovery Act funds
   to repay the Federal and non-Federal programs to which it misallocated Recovery Act salary
   expenses.




                                                     11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                          Auditee Comments




                                                           CORPUS CHRISTI HOUSING AUTHORITY
      BOARD OF COMMISSIONERS                                        Executive Offices
                                                                    3701 Ayers Street
      FRANK W. MONTESANO, Chairperson                               Corpus Christi, Texas 78415
      WILLIAM D. BONILLA, Vice-Chairperson
      PRISCILLA WALLER, Commissioner                                    Office: 361-889-3350
      ELMER C. WILSON, Commissioner                                     Fax:    361-889-3391
      PATRICIA MCDANIEL, Commissioner                                   Website: www.hacc.org

              September 30, 2011

              Mr. Gerald R. Kirkland, Regional Inspector General for Audit
              U.S. Department of Housing and Urban Development
                Office of Inspector General, Region VI
              819 Taylor Street, Suite 13A09
              Fort Worth, TX 76102

              Dear Mr. Kirkland:

              Attached you will find our written response to the draft audit report of the Corpus Christi
              Housing Authority’s administration of the Recovery Act Capital Funds grant. Although
              we do not agree with all the findings contained in the report, we look forward to the
              resolution of the disputed items.

              Thank you for your consideration of our response, and we look forward to the issuance of
              the final audit report with the requested adjustments.

              Sincerely,



              Joanna Moreno
              Executive Vice President




                                                  12
            Requested Responses to HUD OIG Draft Report Dated September 22, 2011

            The Authority did not fully comply with the Recovery Act’s “made in America”
            requirements.

            The Authority paid $4,962 in Recovery Act funds to purchase furniture that it could not
            show was made in America as required because program staff was unaware of the “made
            in America” requirement.

            Authority’s Response: Pursuant to PIH Notice 2009-31, PIH Implementation Guidance
            for the Buy American Requirement of the American Recovery and Reinvestment Act of
            2009 including Process for Applying Exceptions, issued August 21, 2009, Section 1605
            (the “Buy American requirement) of the Recovery Act states that: “ ….for a project for
            the construction, alteration, maintenance, or repair of a public building or public work
Comment 1   unless all of the iron, steel, and manufactured goods used in the project are produced in
            the United States.” It is our contention that the “made in America” requirement is not
            applicable in this instance. Furthermore, as noted in the same notice, Section V.4.
            National (Categorical) Exceptions Granted, “Where the size of a contract funded with
            CFRFC grant assistance is less than $100,000, regardless of the size of the PHA, the Buy
            American requirement is not applicable.”

            The Authority made ineligible relocation payments to tenants.

            The Authority made $1,450 in ineligible relocation payments for incidental expenses to
            assist 29 tenants in temporarily relocating from a property that it was renovating with
            Recovery Act funds.

            Authority’s Response: The Authority concedes that it was operating under an older
            version of HUD Handbook 1378, Section 3.2 (c), Displaced Public Housing Tenants,
            which states that in the case of a PHA election to move the tenant, at no cost to the
            tenant, then in such a case, the tenant is entitled to a dislocation allowance of $50.
            However, the updated version, effective April 2008, continues to allow for a payment
Comment 2   limited to $100 in the case of a residential move that is performed by the agency at no
            cost to the tenant. The Authority will seek any training and technical assistance that
            HUD can offer regarding relocation assistance. If it is determined that a policy change is
            required, the Authority will modify its policy accordingly. Furthermore, if after further
            review, it is HUD’s determination that this finding remain, then the Authority will
            reimburse $1,450 for ineligible tenant relocation payments from non-federal funds, or if
            permissible, from a current CFP grant.

            The Authority misallocated salary expenses.

            The Authority misallocated $411 in recovery Act salary expenses to its low-rent program
            and another $557 among the Authority’s other Federal and non-Federal programs.

            Authority’s Response: The Authority agrees with this statement. Although an effective
            time-tracking allocation system, with an independent review of data, was in place, an
Comment 3
            oversight of a data entry error did occur. The Authority will use non-federal funds to
            reimburse $411 to the low-rent program and $557 to the correct program.




                                               13
            The Authority inappropriately used Recovery Act funds for general office supplies
            not used solely for Recovery Act activities.

            The Authority used $63 to purchase general office supplies for the Capital Fund program
            construction office. This was the Authority’s only purchase from an office supply retailer
            using Recovery Act funds. Recovery Act funds could not be used for operating expenses.

            Authority’s Response: Pursuant to PIH Notice 2009-12, Information and Procedures for
            Processing American Recovery and Reinvestment Act Capital Fund Formula Grants,
            issued March 18, 2009, page 4 outlines Restrictions on Use of Funds, specifically, “All
            expenditures from Account 1410 (Administration) are limited to 10 percent of the total
            grant. A PHA may draw up to 10 percent of each expenditure reimbursement for
Comment 4   administration of the Recovery Act grant.” It is our contention that the restriction to the
            use of Account 1406 Operations as outlined in this notice is the correct interpretation of
            “used for operations or rental assistance activities.” It was noted that because the office
            supplies were housed in the Capital Fund office (which is the office responsible for the
            ARRA grant), a determination as to the use of the supplies, i.e. binder clips and ink
            cartridges (were they used for ARRA purposes or the CFP program) could not be made.
            Since the funds for the office supplies was drawn on Account 1410, and were used for the
            administration of the Recovery grant, it is our contention that these funds were used
            appropriately.

            The Authority submitted 2 of 14 performance reports late.

            Authority’s Response: As discussed at the exit conference, one of the two late reports
Comment 5   was cleared. The report for quarter ending March 31, 2011 was submitted on April 8,
            2011, within the 10 day requirement. The Authority acknowledges the importance of
            reporting deadlines, and continuously strives to ensure such requirements are met.




                                               14
                           OIG Evaluation of Auditee Comments

Comment 1: The Authority stated that the “Buy American” requirement did not apply because
the furniture was purchased for less than $100 thousand. We disagreed because the furniture is a
manufactured good used in the project; therefore, subject to the “Buy American” requirement.
We did not change the recommendation.

Comment 2: The Authority stated that HUD Handbook 1378, Section 3.2(c) updated April 2008
allows payments limited to $100 when residential moves are performed by the agency at no cost
to the tenant. The Authority also stated it would seek further guidance from HUD on this issue.
We disagree. OMB Regulation, 2 CFR, Part 225 Attachment A Section C.1. requires costs to be
reasonable, necessary, and adequately documented. We did not change the recommendation.

Comment 3: The Authority agreed that its payroll costs were misallocated and agreed with the
recommendation.

Comment 4: The Authority contended that the funds for office supplies were used appropriately.
We disagreed because the Authority could not show that the office supplies were used
exclusively for the Recovery Act program. We did not change the recommendation.

Comment 5: The Authority admitted that one of its reports was late but disagreed that a second
report was late. We reviewed the report dates, agreed that the second report was timely, and
made appropriate changes to the report.




                                               15
Appendix C

     EXAMPLES OF RECOVERY ACT-FUNDED ACTIVITIES

The Authority used Recovery Act funding for interior and exterior repairs, new appliances, and
infrastructure and site improvements as noted in the table below. The table shows examples of
completed Recovery Act activities.

Project name and development number         Recovery Act-funded activity
Wiggins TX 08-01                            Security fences, water, sewer, and gas lines
Ruthmary Price TX 08-11                     Windows with hurricane protection, interior
                                            renovations, security cameras, security fencing, and
                                            concrete parking
Treyway Terrace TX 08-10                    Windows with hurricane protection, security
                                            cameras, and roofing
Leeward Homes TX 08-14                      Windows with hurricane protection, security
                                            cameras, and roofing
Clairelane Gardens Phase IV TX 08-08        Interior and exterior renovations, security cameras,
                                            security fences, gas ranges, and refrigerators
Parkway Homes I, TX 08-09                   Concrete parking
Navarro Place TX 08-02                      Security fences
Andy Alaniz I & II TX 08-15                 Security cameras
McKinzie Manor I & II TX 08-12              Interior and exterior renovations, security cameras,
                                            and security fences

New windows and security cameras at Ruthmary Price




                                              16
Interior renovations at Clairelaine




Security fencing at Navarro




Concrete parking at Parkway I




                                      17
